WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

19-1340

David Tribble et. al.

v.

First Security Bank, et. al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.

El There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

First Security Bank

111 I am a member of the Bar of the Supreme Court of the United States.
El I am not presently a member of the Bar of this Court. S uld a response be requested, the response
will be filed by a
member
Signature
Date.

6/

(Type or print) Name

Ronald P. Kincade
El Mr.

Firm

❑ Mrs.

❑ Miss

Kincade Law Firm

Address

701 South Church Street

City & State
Phone

❑ Ms.

Mountain Home, Arkansas

879 425-8454

Email

Zip

72653

rkincade@kincadelawfirm.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Larry Joe Steel

RECEIVED
JUL - 8 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

